HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, Blue Cross of Washington and Alaska, (A-07-96-01189)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, Blue Cross of
Washington and Alaska," (A-07-96-01189)
March 18, 1997
Complete Text of Report is available in PDF format
(913 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides you with the results of our review of Medicare Contractor's
Pension Segmentation, Blue Cross of Washington and Alaska (Washington/Alaska).
Our review showed that Washington/Alaska correctly identified Medicare segment
pension assets of $699,059 as of 1986. However, Washington/Alaska's update of
the Medicare segment assets from Plan Yar 1986 to Plan Year 1995 understated
segment assets by $96,740. This understatement primarily occurred because Washington/Alaska
misidentified plan participants as to segment and nonsegment. We recommended
that Washington/Alaska increase the January 1, 1995 assets of the Medicare segment
by $96,740. Washington/Alaska agreed with our recommendations.